(~
'+~~       --'r

  :t""'..iO(!
                    DEPARTMENT OF
                    DEPARTMENT OF HEALTH &. HUMAN SERVICES
                                         &. HUMAN                                                                            Office of
                                                                                                                             Office of Inspector
                                                                                                                                       Inspector General


                                                                                                                             Washington, D.C.
                                                                                                                                         D.C. 20201
                                                                                                                                              20201



                                                                                     SEP
                                                                                     SEP 11 66 2008
                                                                                               2008


               TO:                     Kerry
                                       Kerr Weems
                                             Weems
                                       Acting Administrator



                                                                                      ß.~
                                       Centers for Medicare & Medicaid Services


               FROM:                   Daniel
                                       Daniel     R. Levinson
                                              R. Levinson        ~~ ~. ~
                                       Inspector General


               SUBJECT:                Review
                                       Review of of Profitability       Analysis
                                                    Profitability Analysis of      New Orleans Hospitals Compared With Peer
                                                                                 ofNew
                                       Hospitals      (A-07-07-02734)
                                       Hospitals (A-07-07-02734)                 .

               The    attached
               The attached          final
                            final report     report
                                         provides       provides
                                                  the results          the results
                                                              of our analysis           ofofour
                                                                              ofthe impact   
                              HurrcaneKatrina
                                                                                                analysis ofthe impact of Hurricane     Katra
               on the five New Orleans hospital groups (testifying hospitals)                   hospitals) that testified
                                                                                                                testified at a U.S.
                                                                                                                               U.S. House
                                                                                                                                    House of
                                                                                                                                          of
               Representativeshearing
               Representatives            hearng on August  August 1,2007.

                           hearng, offcials
               In that hearing,         officialsof    ofthe
                                                           thetestifyng
                                                                  testifyinghospitals
                                                                                  hospitalstestified
                                                                                                  testifiedthat
                                                                                                            thattheir
                                                                                                                   theirhospitals
                                                                                                                           hospitals experienced
                                                                                                                                         experienced
               significant       post-Katrina
               significant post-Katrna                operating
                                       operating losses,               losses,
                                                         largely because  of       largely because of the          increased
                                                                                                             the increased         costs of providing
                                                                                                                           costs of


               hospital care care since
                                     since the theAugust
                                                     August2005    2005hurricane.
                                                                            hurcane. The     Thetestifyng
                                                                                                    testifyinghospitals
                                                                                                                hospitalsrequested
                                                                                                                               requested additional
                                                                                                                                            additional
               Federal      fmancial
               Federal financial assistance,assistance,      including
                                             including additional  grant funds additional       grant
                                                                               from the Departent of    funds from the Department of Health and
               Human Services,
                            Services, to use    use forfor the
                                                            the recovery
                                                                   recovery ofthe ofthe health
                                                                                            health care
                                                                                                      care delivery
                                                                                                            delivery system
                                                                                                                         system in   in the
                                                                                                                                        the New
                                                                                                                                            New Orleans
                                                                                                                                                 Orleans
               area.

               In  September
               In September 2007, the 2007,                             Representatives Committee
                                                 of 
 U.S. House of Representatives
                                      U.S. Housethe                                               Commttee on     on Energy
                                                                                                                      Energy and
                                                                                                                              and Commerce
               requested that the Office of Inspector
               requested that the Offce of                Inspector   General
                                                                General             (OIG)
                                                                        (OIG) perform         perform
                                                                                      a profitability          profitability analysis of the
                                                                                                            a of

                                                                                                      analysis

               testifying hospitals.

               testifyng       hospitals.

               This
               This     report,
                     report,        theofsecond
                             the second   
      of two OIG reports, responds to   to this
                                                                                      this congressional
                                                                                           congressional request.
                                                                                                            request. To gain a
               more detailed understanding of the testifying hospitals'
               more detailed understanding of 
                          hospitals' financial
                                                                                      financial situation,
                                                                                                 situation, in
                                                                                                             in this
                                                                                                                 this report
                                                                                                                       report we
                                                                                                                              we
               compared profitability trends and characteristics of           of the testifying hospitals with similar
                                                                                                                    similar data from
               three
               three       of 
 of peer hospitals:
                         sets
                      sets                  hospitals: (1)
                                                        (1)other
                                                            otherhospitals
                                                                 hospitals in
                                                                            inthe
                                                                               the New
                                                                                   NewOrleans
                                                                                         Orleans area,
                                                                                                    area, (2) hospitals in a
               demographically similar city (Cleveland, Ohio), and (3) hospitals in a geographically similar city
               (Mobile, Alabama).

               Our objective was to analyze the impact of Hurcane
               Our objective was to analyze the impact of 
           HurricaneKatrina
                                                                                 KatrinaononNew
                                                                                             NewOrleans
                                                                                                  Orleanshospitals
                                                                                                            hospitals that
                                                                                                                       that
               testified
               testified     toU.S.
                         to the theHouse
                                     U.S.of 
 House of Representatives Committee on  on Energy
                                                                                        Energy and Commerce,
               Subcommittee on Oversight and Investigations, by comparing     comparng these
                                                                                          these hospitals'
                                                                                                hospitals' profitability
                                                                                                            profitabilitytrends
                                                                                                                          trends
               with similar data         from
                                  data from     three sets of peer
                                                           of peer hospitals during the same
                                                                                        same  timeframes.
Page 2 – Kerry Weems


The testifying hospitals experienced profitability trends that (1) differed from those of the peer
hospitals and (2) reflected both the adverse financial impact of Hurricane Katrina and subsequent
financial improvements after the testifying hospitals received Business Interruption insurance
payments and additional Federal funding because of their hurricane damage. Specifically, the
testifying hospitals experienced negative margins during both the fiscal year (FY) before the
hurricane (FY 2004) and the FY in which the hurricane occurred (FY 2005). For the FY after
the hurricane, the testifying hospitals experienced both positive and negative margins, but the
negative margins were trending upward in comparison to those of the previous year. The
margins for the peer hospitals during this time period were much more variable, though with
generally less fluctuation from 1 FY to the next.

Specifically:

   •   The testifying hospitals had decreasing patient-related care, total, and Medicare program
       margins over time, with an increase in the last year of our analysis. The Medicaid
       program margin remained generally constant throughout the review period.

   •   The other New Orleans area hospitals had a relatively constant patient-related care margin
       throughout the review period, with a slight decrease in FY 2006. The total margin was also
       constant throughout the review period, with a slight increase in FY 2004. The Medicare
       and Medicaid program margins had opposite trends throughout the review period, with the
       Medicare program margin decreasing and the Medicaid program margin increasing.

   •   The Cleveland and Mobile hospitals had increasing patient-related care and total margins
       throughout the review period. They both had a decreasing Medicare program margin. The
       Medicaid program margin was constant for Cleveland but was decreasing for Mobile.

As this is an informational report, we have no recommendations.

Pursuant to the principles of the Freedom of Information Act, 5 U.S.C. § 552, as amended by
Public Law 104-231, Office of Inspector General reports generally are made available to the
public to the extent the information is not subject to exemptions in the Act (45 CFR part 5).
Accordingly, this report will be posted on the Internet at http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or your
staff may contact George M. Reeb, Assistant Inspector General for the Centers for Medicare
& Medicaid Audits, at (410) 786-7104 or through e-mail at George.Reeb@oig.hhs.gov. Please
refer to report number A-07-07-02734 in all correspondence.


Attachment
Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




   REVIEW OF PROFITABILITY
  ANALYSIS OF NEW ORLEANS
  HOSPITALS COMPARED WITH
       PEER HOSPITALS




                    Daniel R. Levinson
                     Inspector General

                     September 2008
                      A-07-07-02734
                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                           Notices



       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the principles of the Freedom of Information Act, 5 U.S.C.
§ 552, as amended by Public Law 104-231, Office of Inspector General
reports generally are made available to the public to the extent the
information is not subject to exemptions in the Act (45 CFR part 5).

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

On August 1, 2007, the U.S. House of Representatives Committee on Energy and Commerce,
Subcommittee on Oversight and Investigations, held a hearing on post-Katrina health care in the
New Orleans region. In this hearing, officials of five hospital groups in the New Orleans region
(testifying hospitals) testified that their hospitals experienced significant post-Katrina operating
losses, largely because of the increased costs of providing hospital care since the August 2005
hurricane. The testifying hospitals requested additional Federal financial assistance, including
additional grant funds from the Department of Health and Human Services, to use for the
recovery of the health care delivery system in the New Orleans area.

In September 2007, the House Committee on Energy and Commerce requested that the Office of
Inspector General (OIG) “. . . perform a profitability analysis comparing the five hospitals’
financials against other peer hospitals, to the extent feasible and appropriate.”

This report, the second of two OIG reports, responds to this congressional request. Our first
report presented the trends in profitability for the testifying hospitals by examining the patient-
related care margin, total margin, Medicare program margin, and Medicaid program margin—
both individually and collectively—during an audit period of fiscal year (FY) 2002 through
2006. To gain an understanding of the testifying hospitals’ financial situation, in this report we
compared profitability trends and characteristics of the testifying hospitals with similar data from
three sets of peer hospitals: (1) other hospitals in the New Orleans area, (2) hospitals in a
demographically similar city (Cleveland, Ohio), and (3) hospitals in a geographically similar city
(Mobile, Alabama). Both the other New Orleans area hospitals and the Mobile hospitals
received additional Federal funding after the hurricane.

OBJECTIVE

Our objective was to analyze the impact of Hurricane Katrina on New Orleans hospitals that
testified to the U.S. House of Representatives Committee on Energy and Commerce,
Subcommittee on Oversight and Investigations, by comparing these hospitals’ profitability trends
with similar data from three sets of peer hospitals during the same timeframes.

SUMMARY OF FINDINGS

The testifying hospitals experienced profitability trends that (1) differed from those of the peer
hospitals and (2) reflected both the adverse financial impact of Hurricane Katrina and subsequent
financial improvements after the testifying hospitals received Business Interruption insurance
payments and additional Federal funding because of their hurricane damage. Specifically, the
testifying hospitals experienced negative margins during both the FY before the hurricane
(FY 2004) and the FY in which the hurricane occurred (FY 2005). For the FY after the
hurricane, the testifying hospitals experienced both positive and negative margins, but the
negative margins were trending upward compared with those of the previous year. The margins




                                                  i
for the peer hospitals during this time period were much more variable, though with generally
less fluctuation from 1 FY to the next.

The following table summarizes the trends, by type of margin, for the peer and testifying
hospitals during the time period of our review.

                       Profitability Trends for FYs 2002 Through 2006
                        Patient-Related            Total            Medicare                Medicaid
                         Care Margin              Margin            Margin                  Margin
Cleveland, OH,            Increasing             Increasing        Decreasing               Constant
Hospitals
Mobile, AL,                Increasing                Increasing         Decreasing          Decreasing
Hospitals
Other New            Constant, with slight   Constant, with slight      Decreasing          Increasing
Orleans Hospitals    decrease in FY 2006     increase in FY 2004
Testifying             Decreasing, with        Decreasing, with      Decreasing, with        Constant
Hospitals            increase in FY 2006     increase in FY 2006       increase in
                                                                        FY 2006

Specifically:

   •   The testifying hospitals had decreasing patient-related care, total, and Medicare program
       margins over time, with an increase in the last year of our analysis. The Medicaid
       program margin remained generally constant throughout the review period.

   •   The other New Orleans area hospitals had a relatively constant patient-related care
       margin throughout the review period, with a slight decrease in FY 2006. The total
       margin was also constant throughout the review period, with a slight increase in FY 2004.
       The Medicare and Medicaid program margins had opposite trends throughout the review
       period, with the Medicare program margin decreasing and the Medicaid program margin
       increasing.

   •   The Cleveland and Mobile hospitals had increasing patient-related care and total margins
       throughout the review period. They both had decreasing Medicare program margins.
       The Medicaid program margin was constant for Cleveland but was decreasing for
       Mobile.

RECOMMENDATION

As this is an informational report, we have no recommendations.

CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS

After receiving our draft report, the Centers for Medicare & Medicaid Services elected not to
comment.



                                                ii
                                                TABLE OF CONTENTS

                                                                                                                              Page

INTRODUCTION ...............................................................................................................1

          BACKGROUND .......................................................................................................1
              Congressional Request...................................................................................1
              Testifying Hospitals .......................................................................................1
              Peer Hospitals ................................................................................................2
              Hospital Financial Data..................................................................................2
              Determination of Profitability and Financial Ratio Analysis ........................3

          OBJECTIVE, SCOPE, AND METHODOLOGY .....................................................4
               Objective ........................................................................................................4
               Scope..............................................................................................................5
               Methodology ..................................................................................................5

SUMMARY OF FINDINGS ...............................................................................................6

          COMPARISON OF TESTIFYING HOSPITALS WITH PEER HOSPITALS........7
              Hospital Financial Analysis ...........................................................................7
              Testifying Hospitals Compared With
                Other New Orleans Area Hospitals............................................................8
              Testifying Hospitals Compared With Hospitals in a
                Demographically Similar City ..................................................................11
              Testifying Hospitals Compared With Hospitals in a
                Geographically Similar City ......................................................................13
              Summary of Hospital Financial Analysis ......................................................16

         RECOMMENDATION ..............................................................................................18

         CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS ...............18




                                                                    iii
                                                  INTRODUCTION

BACKGROUND

Congressional Request

On August 1, 2007, the U.S. House of Representatives Committee on Energy and Commerce,
Subcommittee on Oversight and Investigations, held a hearing on post-Katrina health care in the
New Orleans region. In this hearing, officials of five hospital groups in the New Orleans region
(testifying hospitals) testified that their hospitals experienced significant post-Katrina operating
losses, largely because of the increased costs of providing hospital care since the August 2005
hurricane. The testifying hospitals requested additional Federal financial assistance, including
additional grant funds from the Department of Health and Human Services, to use for the
recovery of the health care delivery system in the New Orleans area.

In September 2007, the U.S. House of Representatives Committee on Energy and Commerce
requested that the Office of Inspector General (OIG) “. . . perform a profitability analysis
comparing the five hospitals’ financials against other peer hospitals, to the extent feasible and
appropriate.”

This report, the second of two OIG reports, responds to this congressional request. The first
report demonstrated the trends in profitability for the testifying hospitals. 1

Testifying Hospitals

Officials from the testifying hospitals—East Jefferson General Hospital, Ochsner Health
System, 2 Touro Infirmary, Tulane University Hospital, and West Jefferson Medical Center—
testified that they were incurring extraordinary financial losses because of the weakening of the
region’s economy, which was still severely stressed during our audit period as a result of the
disaster. According to the hospitals’ testimony of August 1, 2007, the hospitals provide
95 percent of the hospital-based services in the New Orleans metropolitan area.

The testifying hospitals presented a financial picture, comparing pre-Katrina (January through
May 2005) and post-Katrina (January through May 2007) expenses and revenues. To gain an
understanding of the financial situation of the hospitals, we expanded the timeframe to
encompass the period of fiscal years (FY) 2002 through 2006. 3




1
    “Review of Profitability Analysis of New Orleans Hospitals” (A-07-07-02733).
2
    Ochsner Health System’s testimony included five facilities.
3
 In this report, all year references are to FYs determined by each hospital’s cost report period ending between
January 1 and December 31 of the particular year.


                                                            1
Peer Hospitals

We compared profitability trends and characteristics of the testifying hospitals with similar data
from three sets of peer hospitals: (1) other hospitals in the New Orleans area (eight acute-care
hospitals), (2) hospitals in a demographically similar city (six acute-care hospitals in Cleveland,
Ohio), and (3) hospitals in a geographically similar city (five acute-care hospitals in Mobile,
Alabama).

For the city whose demographic characteristics were similar to those of New Orleans, we
selected Cleveland using these criteria: (1) total population, (2) average income level of
population, (3) percentage of people (of similar racial/ethnic composition) below the poverty
line, (4) demographic makeup of the city, and (5) number of acute-care hospitals in the area.

For the city whose geographic characteristics—physical and cultural—were similar to those of
New Orleans, we selected Mobile using these criteria: (1) susceptibility to hurricanes or similar
storms, (2) past history of hurricanes or similar storms, (3) number of acute-care hospitals in the
area, and (4) demographic makeup of the city.

Hospital Financial Data

To perform comparisons of these hospitals, we analyzed the hospitals’ financial data. Typically,
hospitals’ revenues are derived from (1) payments made for services to patients who do not have
health insurance (private-pay), (2) health insurance companies (third-party health insurance),
(3) Federal funds (including payments for Medicare and Medicaid), and (4) State Medicaid
funds.

Pursuant to Title XVIII of the Social Security Act, the Medicare program provides health
insurance for people age 65 and over and those who are disabled or have permanent kidney
disease. The Centers for Medicare & Medicaid Services (CMS) administers the program.

Pursuant to Title XIX of the Social Security Act, the Medicaid program provides medical
assistance to low-income individuals and individuals with disabilities. The Federal and State
governments jointly fund and administer the Medicaid program. At the Federal level, CMS
administers the program, as it administers the Medicare program. Each State administers its
Medicaid program in accordance with a CMS-approved State plan. Although the State has
considerable flexibility in designing and operating its Medicaid program, it must comply with
applicable Federal requirements.

Federal reimbursement for ongoing operations is based on cost reports, which contain financial
data for all revenue, not just Medicare and Medicaid. Federal regulations require providers to
submit, on an annual basis, cost report data based on the provider’s financial and statistical
records. This information must be accurate and in sufficient detail to support payments made for
services provided to beneficiaries. The data in the cost reports feed into the Healthcare Cost
Report Information System (HCRIS). Hospitals attest that the data are accurate and complete
when they submit their cost reports.




                                                 2
Each hospital (or other Medicare service provider) is required to file a Medicare cost report each
year. After acceptance of the cost report, the fiscal intermediary (FI) performs a tentative
settlement to ensure that the provider is reimbursed expeditiously. 4 The FI may perform a
detailed audit after the tentative settlement. If the FI does not perform a detailed audit, the FI
determines final settlement by performing a limited desk audit. After auditing the cost report,
the FI issues a notice of program reimbursement. As the final settlement document, this notice
shows whether payment is owed to the provider or to the Medicare program. The final
settlement incorporates any audit adjustments that the FI may have made to the filed Medicare
cost report.

Determination of Profitability and Financial Ratio Analysis

Profitability ratios serve as a measure of a hospital’s ability to achieve an excess of revenues
over expenditures or, in other words, to provide a return. For hospitals, the ability to provide a
return is important to secure the resources necessary to update property, plant, and equipment;
implement strategic plans; or make investments. Losses, on the other hand, threaten liquidity,
drain other investments, and may threaten the long-term viability of the organization. The
profitability ratios reported here are the patient-related care margin, total margin, Medicare
program margin, and Medicaid program margin.

Patient-Related Care Margin

The patient-related care margin measures revenues and expenses related to the day-to-day
operations of the facility. In other words, it measures the profitability from patient care
operations alone. The revenues and expenses are for all payer types, and the data are obtained
from Worksheet G-3 of the Medicare cost report.

We calculated the patient-related care margin using the following formula:

Patient-Related Care Margin =

                         Total net patient-related care revenues – Total patient-related care expenses
                                               Total net patient-related care revenues

Total Margin

The total margin measures profitability from all sources of income. The data are obtained from
Worksheet G-3 of the Medicare cost report.




4
 Medicare FIs are private insurance companies that serve as the Federal Government’s agents in the administration
of the Medicare program, including the payment of claims.



                                                        3
We calculated the total margin using the following formula:

                               Total Margin = Total revenues 5 – Total expenses 6
                                                       Total revenues

Medicare Program Margin

The Medicare program margin has its basis in payments received from Medicare. 7 The expenses
relate to the expenditures for program services as determined from the Medicare cost report.

We calculated the Medicare program margin using the following formula:

            Medicare Program Margin = Total Medicare payments – Total Medicare expenses
                                                  Total Medicare payments

Medicaid Program Margin

The Medicaid program margin has its basis in payments received from Medicaid. The expenses
relate to the expenditures for program services as determined from the Medicare cost report
and/or the Medicaid cost report.

We calculated the Medicaid program margin using the following formula:

            Medicaid Program Margin = Total Medicaid payments – Total Medicaid expenses
                                                   Total Medicaid payments

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to analyze the impact of Hurricane Katrina on New Orleans hospitals that
testified to the U.S. House of Representatives Committee on Energy and Commerce,
Subcommittee on Oversight and Investigations, by comparing these hospitals’ profitability trends
with similar data from three sets of peer hospitals during the same timeframes.




5
    We included any special Katrina-related payments received after Hurricane Katrina.
6
    Total expenses are operating expenses and all other expenses.
7
 The payments are for all inpatient acute-care and outpatient services. The payments also include payments for any
subunits of the hospital, such as a rehabilitation unit, psychiatric unit, and skilled nursing facility, in addition to
payments received for items such as disproportionate share and graduate medical education. Medicare Part C
(Medicare Advantage) payments are not included.



                                                            4
Scope

We reviewed the testifying and peer hospitals’ financial records for FYs 2002 through 2006.
Using this timeframe enabled us to gain an understanding of the financial situation of the
hospitals by examining profitability trends for several years before the hurricane, the year of the
hurricane (FY 2005), and the year after the hurricane. We used the hospitals’ latest available
Medicare cost reports, as of September 30, 2007, as the basis of our review.

We did not review internal controls because our objective did not require us to do so.

We performed our fieldwork from November through December 2007.

Methodology

To accomplish our objective, we:

   •    reviewed applicable Federal laws and regulations,

   •    obtained FYs 2002 through 2006 HCRIS cost report data and used them to determine the
        hospitals’ revenues and expenses,

   •    obtained FYs 2002 through 2006 HCRIS cost report data and used them to identify the
        hospitals’ Medicare and Medicaid payments and expenses,

   •    obtained hard copies of Medicaid cost reports for the Cleveland and testifying hospitals,

   •    used audited financial statements for periods with apparent errors in the HCRIS data,

   •    identified additional Federal funding sources,

   •    calculated a patient-related care margin for hospitals based on patient-related care data
        reported by the hospitals in their Medicare cost reports,

   •    calculated a total margin for hospitals based on total expense and revenue data reported
        by the hospitals in their Medicare cost reports,

   •    calculated a Medicare program margin for hospitals based on total program payments in
        relation to program services expenses as reported by the hospitals in their Medicare cost
        reports, and

   •    calculated a Medicaid program margin for hospitals based on total program payments in
        relation to program services expenses as reported by the hospitals in their Medicare cost
        reports and/or their Medicaid cost reports.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain


                                                 5
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                                 SUMMARY OF FINDINGS

The testifying hospitals experienced profitability trends that (1) differed from those of the peer
hospitals and (2) reflected both the adverse financial impact of Hurricane Katrina and subsequent
financial improvements after the testifying hospitals received Business Interruption insurance
payments and additional Federal funding because of their hurricane damage. Specifically, the
testifying hospitals experienced negative margins during both the FY before the hurricane and
the FY in which the hurricane occurred. For the FY after the hurricane, the testifying hospitals
experienced both positive and negative margins, but the negative margins were trending upward
compared with those of the previous year. The margins for the peer hospitals during this time
period were much more variable, though with generally less fluctuation from 1 FY to the next.

The following table summarizes the trends, by type of margin, for the peer and testifying
hospitals during the time period of our review.

                       Profitability Trends for FYs 2002 Through 2006
                        Patient-Related            Total            Medicare                Medicaid
                         Care Margin              Margin            Margin                  Margin
Cleveland, OH,            Increasing             Increasing        Decreasing               Constant
Hospitals
Mobile, AL,                Increasing               Increasing          Decreasing          Decreasing
Hospitals
Other New             Constant, with slight   Constant, with slight     Decreasing          Increasing
Orleans Hospitals     decrease in FY 2006     increase in FY 2004
Testifying              Decreasing, with        Decreasing, with      Decreasing, with       Constant
Hospitals             increase in FY 2006     increase in FY 2006       increase in
                                                                         FY 2006

Specifically:

   •   The testifying hospitals had decreasing patient-related care, total, and Medicare program
       margins over time, with an increase in the last year of our analysis. The Medicaid
       program margin remained generally constant throughout the review period.

   •   The other New Orleans area hospitals had a relatively constant patient-related care
       margin throughout the review period, with a slight decrease in FY 2006. The total
       margin was also constant throughout the review period, with a slight increase in FY 2004.
       The Medicare and Medicaid program margins had opposite trends throughout the review
       period, with the Medicare program margin decreasing and the Medicaid program margin
       increasing.




                                                6
   •   The Cleveland and Mobile hospitals had increasing patient-related care and total margins
       throughout the review period. They both had a decreasing Medicare program margin.
       The Medicaid program margin was constant for Cleveland but was decreasing for
       Mobile.

COMPARISON OF TESTIFYING HOSPITALS WITH PEER HOSPITALS

Hospital Financial Analysis

We compared the testifying hospitals with peer hospitals in (1) the New Orleans area;
(2) Cleveland, Ohio (a demographically similar city); and (3) Mobile, Alabama (a geographically
similar city). We compared these hospitals on the basis of the patient-related care margin, total
margin, Medicare program margin, and Medicaid program margin for FYs 2002 through 2006.

Patient-Related Care Margin

   •   FYs 2002 and 2003–The patient-related care margins were relatively constant and
       unfluctuating between the 2 FYs for all the hospitals. The testifying and other
       New Orleans area hospitals had small positive patient-related care margins, while the
       Cleveland and Mobile hospitals had negative patient-related care margins.

   •   FY 2004–The testifying hospitals were similar to the Cleveland and Mobile peer
       hospitals in that each group had a negative patient-related care margin. The other
       New Orleans area hospitals showed a positive patient-related care margin.

   •   FY 2005–All peer hospitals (Cleveland, Mobile, and other New Orleans) had similar
       negative patient-related care margins. The testifying hospitals had a material negative
       patient-related care margin.

   •   FY 2006–All hospital groups were similar, with negative patient-related care margins.

Total Margin

   •   FY 2002–All peer hospitals (Cleveland, Mobile, and other New Orleans) were relatively
       constant, with total margins that were either slightly positive or slightly negative. The
       testifying hospitals had a positive total margin.

   •   FY 2003–The three groups of peer hospitals had different total margins: one had a
       positive total margin and two had negative total margins. The testifying hospitals had a
       positive total margin.

   •   FY 2004–The three groups of peer hospitals had different total margins: two had positive
       total margins and one had a negative total margin. The testifying hospitals had a negative
       total margin.




                                               7
   •   FY 2005–The three groups of peer hospitals had different total margins: two had positive
       total margins and one had a negative total margin. The testifying hospitals had a negative
       total margin.

   •   FY 2006–The three groups of peer hospitals had different total margins: two had positive
       total margins and one had a slightly negative total margin. The testifying hospitals had a
       positive total margin, mainly because of their receipt of additional Federal funding and
       the inclusion of payments from Business Interruption insurance.

Medicare Program Margin

   •   FY 2002–All hospital groups had positive Medicare program margins.

   •   FYs 2003 through 2006–The three groups of peer hospitals had different Medicare
       program margins: two had positive Medicare program margins and one had a negative
       Medicare program margin. The testifying hospitals had a negative Medicare program
       margin.

Medicaid Program Margin

   •   FYs 2002 through 2006–The three groups of peer hospitals had different Medicaid
       program margins: two had negative Medicaid program margins and one had a positive
       Medicaid program margin. The testifying hospitals had a negative Medicaid program
       margin.

Testifying Hospitals Compared With Other New Orleans Area Hospitals

Patient-Related Care Margin

The testifying hospitals and the other New Orleans area hospitals experienced similar, positive
patient-related care margins before FY 2004. For FY 2004, the year before Hurricane Katrina,
the other New Orleans area hospitals had a positive patient-related care margin, while the
testifying hospitals had a negative patient-related care margin. In FY 2005, the patient-related
care margins decreased for both groups. In FY 2006, both had negative but similar patient-
related care margins. See Graph 1.




                                                8
                                                   Graph 1
                                           Patient-Related Care Margin
                    Other New Orleans Area Hospitals Compared With Testifying Hospitals
                      5%
                      0%
                     -5%
                     -10%
                     -15%
                     -20%
                     -25%
                              2002         2003          2004         2005            2006
                                                      Fiscal Year
                               Other New Orleans Area Hospitals      Testifying Hospitals




Total Margin

The total margins for FYs 2002 and 2003 were constant but not similar. The testifying hospitals
had a positive total margin and the other New Orleans area hospitals had a slightly negative total
margin. For FY 2004, the other New Orleans area hospitals had a positive total margin, while
the testifying hospitals had a negative total margin. For FY 2005, both groups had negative total
margins. In FY 2006, the other New Orleans area hospitals had a negative total margin, while
the testifying hospitals had a positive total margin. See Graph 2.

                                                   Graph 2
                                                 Total Margin
                     Other New Orleans Area Hospitals Compared With Testifying Hospitals
                      10%

                      5%

                      0%

                      -5%

                     -10%

                     -15%
                               2002         2003          2004         2005            2006
                                                       Fiscal Year
                                Other New Orleans Area Hospitals      Testifying Hospitals




                                                         9
Medicare Program Margin

In FY 2002, both the other New Orleans area hospitals and the testifying hospitals had positive
Medicare program margins. However, the Medicare program margins for both hospital groups
decreased to negative program margins for FYs 2003 through 2006. See Graph 3.

                                                   Graph 3
                                           Medicare Program Margin
                       Other New Orleans Area Hospitals Compared With Testifying Hospitals
                      5%
                      0%
                      -5%
                     -10%
                     -15%
                     -20%
                              2002          2003          2004         2005           2006
                                                       Fiscal Year
                               Other New Orleans Area Hospitals      Testifying Hospitals




Medicaid Program Margin

In FYs 2002 through 2006, both the other New Orleans area hospitals and the testifying hospitals
had negative Medicaid program margins. See Graph 4.

                                                   Graph 4
                                           Medicaid Program Margin
                       Other New Orleans Area Hospitals Compared With Testifying Hospitals
                       0%
                      -50%
                     -100%

                     -150%
                     -200%
                     -250%
                               2002         2003          2004        2005           2006
                                                       Fiscal Year
                               Other New Orleans Area Hospitals      Testifying Hospitals




                                                       10
Testifying Hospitals Compared With Hospitals in a Demographically Similar City

To gain a more accurate understanding of the financial situation of the testifying hospitals, we
developed comparisons with hospitals in a city (Cleveland, Ohio) with demographics similar to
those of New Orleans. We compared the testifying hospitals with the Cleveland hospitals for
patient-related care margin, total margin, Medicare program margin, and Medicaid program
margin.

Patient-Related Care Margin

The patient-related care margins for FYs 2002 and 2003 were constant but not similar for both
groups. The testifying hospitals had a positive patient-related care margin and the Cleveland
hospitals had a negative patient-related care margin. Both groups experienced similar, negative
patient-related care margins in FY 2004. In FY 2005, both groups had a negative patient-related
care margin, but the Cleveland hospitals had a smaller negative margin. In FY 2006, both
groups had negative patient-related care margins. See Graph 5.

                                                   Graph 5
                                          Patient-Related Care Margin
                              Cleveland Hospitals Compared With Testifying Hospitals
                       5%

                       0%

                      -5%

                      -10%

                      -15%

                      -20%

                      -25%
                              2002          2003           2004          2005            2006
                                                       Fiscal Year
                                     Cleveland Hospitals          Testifying Hospitals




                                                       11
Total Margin

The total margins for FYs 2002 and 2003 were somewhat similar: the testifying hospitals had a
positive total margin and the Cleveland hospitals had a slightly positive total margin. For
FYs 2004 and 2005, the testifying hospitals had a negative total margin, while the Cleveland
hospitals had a positive total margin. In FY 2006, the testifying hospitals had a positive total
margin, which included additional funding from Business Interruption insurance payments and
Federal funding in response to hurricane damage. The Cleveland hospitals had a continued
increase for a positive total margin. See Graph 6.

                                                        Graph 6
                                                    Total Margin
                              Cleveland Hospitals Compared With Testifying Hospitals
                     10%

                      5%
                      0%

                      -5%
                     -10%

                     -15%
                                2002           2003            2004          2005            2006
                                                           Fiscal Year
                                         Cleveland Hospitals          Testifying Hospitals




Medicare Program Margin

A comparison of the Medicare program margins shows that in FY 2002, the testifying hospitals
and the Cleveland hospitals had positive Medicare program margins. For FYs 2003 through
2006, the testifying hospitals had a negative Medicare program margin and the Cleveland
hospitals had a positive Medicare program margin. See Graph 7.

                                                        Graph 7
                                             Medicare Program Margin
                              Cleveland Hospitals Compared With Testifying Hospitals
                       15%
                       10%
                        5%
                        0%
                       -5%
                       -10%
                       -15%
                       -20%
                                  2002           2003          2004          2005            2006
                                                           Fiscal Year
                                         Cleveland Hospitals          Testifying Hospitals




                                                           12
Medicaid Program Margin

A comparison of the Medicaid program margins shows that in FYs 2002 through 2006, the
testifying hospitals had a negative Medicaid program margin and the Cleveland hospitals had a
positive Medicaid program margin. See Graph 8.

                                                  Graph 8
                                         Medicaid Program Margin
                            Cleveland Hospitals Compared With Testifying Hospitals
                      20%

                      10%

                       0%

                     -10%

                     -20%

                     -30%

                     -40%
                              2002         2003            2004          2005            2006
                                                      Fiscal Year
                                     Cleveland Hospitals          Testifying Hospitals




Testifying Hospitals Compared With Hospitals in a Geographically Similar City

We compared the testifying hospitals with peer hospitals from a city (Mobile, Alabama) whose
physical and cultural geography were similar to those of New Orleans. We compared the
testifying hospitals with Mobile hospitals using the same characteristics we examined in our
comparison of New Orleans and Cleveland hospitals: patient-related care margin, total margin,
Medicare program margin, and Medicaid program margin.

Patient-Related Care Margin

The patient-related care margins for FYs 2002 and 2003 for the two groups were constant but not
similar. The testifying hospitals had a positive patient-related care margin, and the Mobile
hospitals had a negative patient-related care margin. The testifying hospitals and the Mobile




                                                       13
hospitals experienced similar, negative patient-related care margins for FYs 2004, 2005, and
2006. See Graph 9.

                                                   Graph 9
                                         Patient-Related Care Margin
                                Mobile Hospitals Compared With Testifying Hospitals
                        5%
                        0%
                       -5%
                      -10%
                      -15%
                      -20%
                      -25%
                               2002         2003              2004           2005           2006
                                                         Fiscal Year
                                      Mobile Hospitals               Testifying Hospitals




Total Margin

The total margins for FYs 2002 and 2003 for the two groups were constant but not similar. The
testifying hospitals had a positive total margin and the Mobile hospitals had a negative total
margin. For FY 2004, the testifying hospitals had a negative total margin, while the Mobile
hospitals had a slight negative total margin. For FY 2005, the testifying hospitals had a negative
total margin, while the Mobile hospitals had a positive total margin. In FY 2006, the testifying
hospitals had a positive total margin, which included additional funding from Business
Interruption insurance payments and Federal funding in response to the hurricane damage. The
Mobile hospitals’ total margin continued to increase, resulting in a positive total margin, which
included additional Federal funding. See Graph 10.

                                                   Graph 10
                                                 Total Margin
                                Mobile Hospitals Compared With Testifying Hospitals
                      10%
                       5%
                       0%
                       -5%
                      -10%
                      -15%
                              2002          2003           2004              2005           2006
                                                         Fiscal Year
                                      Mobile Hospitals               Testifying Hospitals




                                                         14
Medicare Program Margin

A comparison of the Medicare program margins shows that in FY 2002, the testifying hospitals
and the Mobile hospitals had positive Medicare program margins. However, for FYs 2003
through 2006, the testifying hospitals had a negative Medicare program margin, while the
Mobile hospitals had a positive Medicare program margin. See Graph 11.

                                                Graph 11
                                         Medicare Program Margin
                               Mobile Hospitals Compared With Testifying Hospitals
                     10%
                      5%
                      0%
                      -5%
                     -10%
                     -15%
                     -20%
                             2002         2003            2004           2005           2006
                                                       Fiscal Year
                                    Mobile Hospitals             Testifying Hospitals




Medicaid Program Margin

A comparison of the Medicaid program margins shows that in FYs 2002 through 2006, the
testifying hospitals and the Mobile hospitals had negative Medicaid program margins. See
Graph 12.

                                                Graph 12
                                         Medicaid Program Margin
                               Mobile Hospitals Compared With Testifying Hospitals
                      0%

                     -50%

                    -100%

                    -150%

                    -200%
                             2002        2003            2004           2005            2006
                                                       Fiscal Year
                                    Mobile Hospitals             Testifying Hospitals




                                                       15
Summary of Hospital Financial Analysis

An overall comparison of the patient-related care margins of the testifying hospitals, other New
Orleans area hospitals, Cleveland area hospitals, and Mobile hospitals appears in Graph 13 and
indicates that in FY 2006, all hospitals experienced negative patient-related care margins.

                                                 Graph 13

                        Overall Comparison of Patient-Related Care Margin
             5%
             0%
             -5%
           -10%
           -15%
           -20%
           -25%
                      2002              2003         2004             2005             2006
                                                  Fiscal Year
                       Testifying Hospitals                 Other New Orleans Area Hospitals
                       Cleveland Hospitals                  Mobile Hospitals




An overall comparison of the total margins of the testifying hospitals, other New Orleans area
hospitals, Cleveland hospitals, and Mobile hospitals appears in Graph 14. In FY 2006, all
hospitals experienced positive total margins, with the exception of the other New Orleans area
hospitals, which experienced a slightly negative total margin.

                                                 Graph 14
                                    Overall Comparison of Total Margin

            10%
              5%
              0%
             -5%
            -10%
            -15%
                       2002               2003           2004             2005              2006
                                                    Fiscal Year
                       Testifying Hospitals                     Other New Orleans Area Hospitals
                       Cleveland Hospitals                      Mobile Hospitals




                                                    16
An overall comparison of the Medicare program margins of the testifying hospitals, other New
Orleans area hospitals, Cleveland hospitals, and Mobile hospitals appears in Graph 15. In
FY 2006, the testifying and other New Orleans area hospitals experienced negative Medicare
program margins, whereas the other two groups had positive Medicare margins.

                                                   Graph 15
                          Overall Comparison of Medicare Program Margin

            15%
            10%
             5%
             0%
             -5%
            -10%
            -15%
            -20%
                      2002                  2003           2004              2005              2006
                                                      Fiscal Year
                     Testifying Hospitals                     Other New Orleans Area Hospitals
                     Cleveland Hospitals                      Mobile Hospitals




An overall comparison of the Medicaid program margins of the testifying hospitals, other New
Orleans area hospitals, Cleveland hospitals, and Mobile hospitals appears in Graph 16. In
FY 2006, all hospital groups, with the exception of the Cleveland hospitals, experienced negative
Medicaid program margins.

                                                   Graph 16
                          Overall Comparison of Medicaid Program Margin
             50%
              0%
            -50%
           -100%
           -150%
           -200%
           -250%
                       2002                 2003           2004               2005             2006
                                                      Fiscal Year
                        Testifying Hospitals                      Other New Orleans Area Hospitals
                        Cleveland Hospitals                       Mobile Hospitals




                                                      17
RECOMMENDATION

As this is an informational report, we have no recommendations.

CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS

After receiving our draft report, CMS elected not to comment.




                                              18
